Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





NURSING HOME ENFORCEMENT:

 COLLECTION OF CIVIL MONEY 

        PENALTIES





                     Daniel R. Levinson 

                     Inspector General 


                       July 2005

                     OEI-06-03-00420

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
Department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidelines, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
                                            `
Δ   E X E C U T I V E                                      S U M M A R Y 



                  OBJECTIVE
                  To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) collected civil money penalties (CMPs) and took required
                  collection actions for nursing home enforcement cases initiated in
                  calendar year (CY) 2002.


                  BACKGROUND
                  CMPs are fines that CMS can impose on Medicare- and Medicaid-certified
                  nursing facilities that are found to be noncompliant with Federal safety
                  and quality of care standards. CMS is charged with ensuring that
                  facilities pay their fines and is required by Federal law, regulations, and
                  policies to take specified collection actions. Delays in collections, or lack
                  of collections, have the potential to undermine the CMPs’ intended effect
                  of ensuring that facilities promptly return to compliance.

                  Required collection actions include providing facilities with complete
                  notification that the CMP is due, assessing interest on unpaid balances,
                  referring past-due CMPs to fiscal intermediaries and State Medicaid
                  agencies to be offset from funds owed to facilities, and transferring debt
                  over 180 days past due to the Department of the Treasury.

                  We examined case information obtained from CMS to determine whether
                  each of the CMPs initiated in CY 2002 were collected in full, partially
                  collected, or remained uncollected as of March 2004. We also assessed
                  timeliness of collections. Through analysis of documentary evidence we
                  determined the extent to which CMS took all required actions to collect
                  the 228 CMPs that became past due by more than 30 days. Information
                  obtained from interviews with CMS staff in the central office and each of
                  the 10 regional offices provided additional information about collection
                  procedures.


                  FINDINGS
                  As of March 2004, CMS did not fully collect 4 percent of the CMPs
                  imposed in CY 2002 and collected another 8 percent well after the due
                  dates. We found that 12 percent (228 out of 1,938) of collectable CMPs
                  initiated in CY 2002 became past due by more than 30 days. CMS had
                  not fully collected 79 CMPs (4 percent of the total) by March 2004, the end
                  of our study period. Further, the collection that did occur (149 collected
                  cases) was often very late, with an average collection time of 115 days
                  past the due date.

OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                   i
E X E C U T I V E                        S U           M M A R Y


                   Forty-four CMPs had no collections during this time period. Of these
                   CMPs, 31 were for facilities that were found to be out of compliance in an
                   inspection following the one that resulted in the imposition of the CMP.
                   CMS did not take all required actions to collect 94 percent of past-
                   due CMPs, but took some actions beyond those required that
                   improved collection results. For 40 percent of past-due CMPs, CMS
                   failed to provide complete notification with all required information,
                   including when the CMPs were due. CMS did not assess interest on 72
                   percent of the past-due CMPs as required and did not refer 71 percent
                   of past-due CMPs to fiscal intermediaries and State Medicaid agencies
                   to initiate collection through offsetting of funds owed to the facilities.
                   Finally, CMS did not transfer any of the 95 CMPs that became over 180
                   days past due to the Department of the Treasury as required. However,
                   we found that CMS sometimes took additional collection actions that
                   are not required, such as sending past-due letters or making telephone
                   calls to facility administrators. About half of the facilities contacted
                   submitted payments to CMS within a month following such contact.
                   Responsibilities for CMP collections are neither clearly defined nor
                   commonly agreed upon. CMS central office staff view CMP
                   collections as primarily a regional office responsibility. While some
                   regional office staffs agree that their offices are primarily responsible
                   for collecting CMPs, others expressed the belief that collection efforts
                   are the responsibility of the central office.
                   Databases used for tracking CMP collections contained inaccurate
                   and incomplete information, causing collection errors and
                   frustrating staff. In some cases, inaccurate information in CMS
                   databases used for tracking CMP payments made them erroneously
                   appear to be past due. CMS regional office staff reported that such data
                   inaccuracies create a disincentive for them to attempt to collect past-
                   due CMPs because they do not want to request payment for a CMP that
                   is not collectable or has been paid. In part, CMP data errors are
                   attributable to CMS’s using three different databases to process CMPs.
                   These databases do not interface with each other and lack an effective
                   means for staff to identify data errors. Lack of feedback to CMS about
                   offsets by State Medicaid agencies also results in incomplete data.




 OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                   ii
E X E C U T I V E                        S U           M M A R Y 





                   RECOMMENDATIONS
                   To ensure that all CMPs are fully collected as timely as possible, we
                   recommend that CMS:
                   Provide oversight to ensure that all required actions for collecting
                   CMPs are taken. Specifically, CMS should ensure that collection staff
                   provide facilities with complete notice when CMPs are due, assess
                   interest on all past-due CMPs, routinely refer past-due CMPs to fiscal
                   intermediaries and State Medicaid agencies to initiate collection
                   through offsets from funds owed to the facilities, and routinely transfer
                   CMPs over 180 days past due to the Department of the Treasury.
                   Educate staff with written guidelines to clarify responsibilities for,
                   and priority of, CMP collections. CMS should issue a new set of
                   guidelines with more clearly delineated responsibilities and increased
                   emphasis on the importance of collections to provide staff with needed
                   clarity about expectations for various actions.
                   Ensure the accuracy of information contained in databases used for
                   tracking CMP collections while making them easier to use. A review of
                   CMP cases from CY 2002 revealed multiple instances of inaccurate data,
                   which reportedly create a disincentive for staff to engage in required
                   collection actions because they do not want to attempt to collect an incorrect
                   amount or to collect CMPs that are not due or have already been paid.




                   AGENCY COMMENTS
                   CMS concurred with our recommendations. The agency further commented
                   that it has recently or will soon implement all of the OIG recommendations.




 OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                   iii
Δ      T A B L E                         O F                  C O N T E N T S                                                     




                  EXECUTIVE SUMMARY ......................................... i



                  INTRODUCTION ................................................ 1




                  FINDINGS ....................................................... 5

                               Past-due and uncollected CMPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 


                               CMS collection actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                               Clarity of responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                               Databases used for tracking CMP collections . . . . . . . . . . . . . . . . . . . 9 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



                  A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



                  E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                               A. Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                               B. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 





OEI-06-03-00420          N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                          iv
Δ    I N T R O D U C T I O N                                                      





                  OBJECTIVE
                  To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) collected civil money penalties (CMPs) and took required
                  collection actions for nursing home enforcement cases initiated in CY 2002.


                  BACKGROUND
                  The Social Security Act requires States to use a survey and certification
                  process to verify that skilled nursing facilities and nursing facilities
                  certified to participate in the Medicare and Medicaid programs maintain
                  Federal standards regarding quality of care, safety, and patient rights.1
                  Whenever State survey agencies determine that facilities are out of
                  compliance with one or more of these standards, CMS may initiate
                  enforcement remedies. The stated purpose of such enforcement remedies is
                  “to ensure prompt compliance with program requirements.”2
                  One enforcement remedy that CMS may use to address noncompliance
                  found during nursing facility surveys is the CMP. A CMP fine will vary,
                  depending on the nature of the noncompliance, and may range from $50 to
                  $10,000 per day until the facility is found to have returned to compliance or
                  from $1,000 to $10,000 per instance of noncompliance. CMS has discretion
                  to impose CMPs on facilities in a wide range of noncompliance situations.
                  These include less serious situations, such as when surveyors find the
                  potential for minimal harm to residents; instances when actual harm has
                  occurred; and the most severe situations when noncompliance has already
                  led, or could lead, to “serious injury, harm, impairment or death to a
                  resident.”3
                  In a recent study, the Office of Inspector General (OIG) found that, in
                  CYs 2000 and 2001, CMS imposed CMPs in 51 percent of enforcement
                  cases, with 85 percent of those cases involving citations for noncompliance
                  at the level of actual harm or immediate jeopardy to residents’ health or
                  safety.4 However, by December 2002, CMS had not fully collected from the
                  facilities 14 percent of the CMPs that were considered collectable.5
                  CMPs are the discretionary remedy CMS uses most frequently.6 Delays in
                  collections, or lack of collections, could potentially undermine CMPs’
                  intended effect of ensuring that facilities promptly return to compliance.
                  This inspection of the CMP collections process is part of OIG’s ongoing
                  evaluation of the quality of care provided to nursing facility residents,
                  particularly as measured by survey deficiencies and by how States and
OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                  1
I N T R O D        U C T             I O N


                   CMS manage the enforcement process. This report builds on prior OIG
                   work by thoroughly examining CMS’s performance in and processes for
                   collecting CMPs.
                   CMP Due Date
                   When CMS notifies a nursing facility that a CMP is being imposed, the
                   nursing facility has 60 days to either file a request for an appeal or waive
                   its right to an appeal.7, 8 The CMP becomes due 15 days after: (1) the 60
                   days has expired, (2) CMS receives an appeal waiver, (3) an appeal decision
                   is made, or (4) the facility is terminated from the program and no appeal
                   request is received. The Social Security Act requires that CMS “minimize
                   the time between the identification of violations and final imposition of the
                   remedies;” thus, time between imposition and collection of the CMP should
                   be as short as possible.9
                   Required CMP Collection Actions
                   CMS is required by Federal laws, regulation, and/or policy to take the
                   following collection actions for CMPs:

                   • 	 Providing notification—Regulations require that CMS provide written
                       notification to the facility that the CMP is due, including in that
                       notification the amount of the CMP imposed, the amount due, the due
                       date, the rate of interest to be charged on unpaid balances, and, for per-
                       day penalties, the days during which the CMP accrued.10
                   • 	 Assessing interest—Regulations require that CMS assess interest on
                       any unpaid balances beginning on the CMP due date and that CMS use
                       a rate of interest that is determined by the Secretary of the Treasury.11
                   • 	 Initiating offsets—CMS policy requires that “if a check is not received
                       by the due date of the CMP, the [CMS regional office] initiates action to
                       collect the CMP through offset of monies owed or owing to the nursing
                       home.”12 To initiate such an offset, CMS staff must instruct the
                       appropriate fiscal intermediaries and State Medicaid agencies to deduct
                       unpaid CMP balances from money owed to the facility.13
                   • 	 Transferring debt—The Debt Collection Improvement Act of 1996
                       requires all debt owed to any Federal agency that is more than 180 days
                       delinquent to be transferred to the Department of the Treasury for debt
                       collection services.14
                   In a 1999 program memorandum, CMS outlined its procedures for
                   conducting the first three of these procedures. Although this memorandum
                   has an expiration date of May 1, 2000, CMS staff indicated that they still


 OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                   2
I N T R O D        U C T              I O N


                   consider it in effect and that it contains the most current policies and
                   procedures related to the collection of CMPs by CMS.
                   OIG and GAO Reports Regarding CMP Collections
                   The OIG report, “Nursing Facility Enforcement: The Use of Civil Money
                   Penalties” (2004), found that CMS had not fully collected 14 percent of the
                   CMPs imposed in CYs 2000 and 2001.15 These unpaid CMPs involved
                   nearly 550 cases and totaled $11.7 million for that 2-year period. Further,
                   the report revealed that CMS did not routinely refer past-due CMPs for
                   offset by fiscal intermediaries and State Medicaid agencies.
                   In its report, “Civil Fines and Penalties Debt: Review of CMS’ Management
                   and Collection Processes” (2001), the Government Accountability Office
                   (GAO) found that CMS did not transfer CMP debt to the Department of the
                   Treasury for collection as required.16 In response to GAO’s recommendation
                   to implement procedures for meeting this requirement, CMS stated that it
                   planned to begin referring all eligible debt, including CMPs, to the
                   Department of the Treasury in fiscal year 2002.


                   METHODOLOGY
                   Scope
                   This inspection focused on the 228 nursing facility enforcement cases in which
                   (1) a CMP was imposed as a result of actions initiated during calendar year
                   2002 and (2) the CMP was collectable and more than 30 days past due as of
                   March 31, 2004.
                   Methods
                   The databases utilized in the course of this inspection included CMS’s Long
                   Term Care Enforcement Tracking System (LTC), Civil Money Penalty
                   Tracking System (CMPTS), and Online Survey, Certification and Reporting
                   System (OSCAR). We also obtained case documentation from CMS for all 228
                   enforcement cases with past-due CMPs and interviewed staff at CMS central
                   and regional offices about collection practices. (See Appendix A for a detailed
                   description of the inspection methodology.)
                   To determine the extent to which CMS collected past-due CMPs, we
                   examined data in CMPTS and reviewed case documentation obtained from
                   CMS. Specifically, we determined whether each CMP had been collected in
                   full, partially collected, or remained uncollected as of March 2004. We also
                   examined timeliness of collections.
                   To determine the extent to which CMS took required collections actions, we
                   examined case documentation of actions taken for the collection of each of
                   the 228 past-due CMPs. We also analyzed interview responses regarding



 OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                    3
I N T R O D         U C T               I O N




                  CMS processes, procedures, and automated systems used to collect past-due
                  CMPs.
                  Quality Standards
                  This study was conducted in accordance with the “Quality Standards for
                  Inspections” issued by the President’s Council on Integrity and Efficiency.




OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                  4
Δ    F I N D I N G S


                  As of March 2004, CMS did not fully           Similar to OIG findings
            collect 4 percent of the CMPs imposed in            regarding CMPs imposed in
            2002 and collected another 8 percent well           2000 and 2001, we found that 12
                                                                percent (228 out of 1,938) of
                                     after the due date
                                                                collectable CMPs initiated in
                      calendar year 2002 became past due by more than 30 days. This 12 percent
                      is composed of 4 percent of CMPs that were not fully collected by the end of
                      our study period in March 2004, and 8 percent that were fully collected well
                      past their due dates.
                      CMS did not fully collect 79 past-due CMPs (4 percent of the total).
                      By March 2004, over a year after the last of the 228 CMPs had been
                      initiated, 79 (4 percent of the collectable CMPs) had not been fully collected.
                      (See Table 1.) Thirty-five of these CMPs had only part of their fines
                      collected, and 44 CMPs had no money collected. The total uncollected
                      amount for these CMPs was $1.2 million.

                        Table 1: CMPs More Than 30 Days Past Due
                                                                                                                                  Amount           Amount
                               Collection Status                                  Past Due CMPs                                        Due**     Uncollected**
                                    (March 2004)                               CMPs                 Percent*                     (millions)        (millions)
                        Not Fully Collected                                         79                        4%                          $1.5           $1.2
                                  Partially Collected                               35                        2%                          $0.7           $0.4
                                  Nothing Collected                                 44                        2%                          $0.8           $0.8
                        Fully Collected Very Late                                 149                         8%                          $1.6           $0.0
                             Total Past Due                                       228                       12%                           $3.1           $1.2
                        Source: OIG Analysis of 1,938 collectable CMP cases initiated in 2002 

                        *Percentage of the total 1,938 collectable CMPs. 

                        **The amounts due and uncollected do not include interest.




                      Among the 149 past-due CMPs that CMS eventually collected (8 percent of the
                      total), the average collection time was 115 days.
                      Once a due date for a CMP is initiated, facilities have 60 days in which they
                      must accept the fine (waive their appeal rights), informally dispute the
                      case, or file a formal appeal. However, once these processes are completed
                      or the 60 days have expired, a firm due date for the CMP is established.
                      For the 149 CMPs CMS collected that were more than 30 days past due, the
                      average collection time was 115 days.17 Seventeen percent of the 149
                      collected CMPs were collected more than 6 months late, with the longest
                      case taking 580 days to collect.




    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                                                5
F   I N D I N G         S


                      Facilities were out of compliance on a subsequent inspection in 36 of the 44
                      uncollected CMPs.
                      CMPs are imposed primarily on nursing facilities cited for serious
                      deficiencies and are part of an enforcement process designed to encourage
                      prompt compliance with Federal standards. If collection is not timely, the
                      intended effect of ensuring that facilities promptly return to and remain in
                      compliance may be undermined. We found that as of March 2004, the
                      facilities associated with 36 of the 44 uncollected CMPs were out of
                      compliance during an inspection following the enforcement cycle when the
                      unpaid CMP was imposed.18 Nineteen of the deficiencies were of a scope
                      and severity level of G (actual harm that is not immediate jeopardy) or
                      higher, and 18 of the subsequent cases were referred to CMS for further
                      enforcement. For example, one facility was cited for noncompliance two
                      more times in calendar years 2002 and 2003 and had two more CMPs
                      imposed as a result, while the first CMP remained uncollected. One of the
                      subsequent CMPs resulted from an incident in which a resident had to be
                      hospitalized for pressure ulcers (bed sores) so severe that surgery was
                      required. At the time of our data collection, only partial collection had
                      occurred on the second CMP, while the first and third remained entirely
                      uncollected.



           CMS did not take all required actions to               Federal requirements specify
                                                                  certain actions that CMS is
      collect 94 percent of past-due CMPs, but did
                                                                  required to take to ensure that
         take some actions beyond those required
                                                                  CMPs are collected from
                   that improved collection results               noncompliant facilities: providing
                      facilities with complete notification that the CMP is due, assessing interest
                      on unpaid balances, offsetting CMPs from funds owed to facilities, and
                      transferring delinquent debt to the Department of the Treasury. We found
                      that CMS took all actions that were required for only 6 percent of past due
                      CMPs, with the remaining 94 percent missing at least one required action.
                      (See Table 2.)

                      The first of these actions, complete notification that the CMP is due, is
                      required for all CMPs unless there is a settlement agreement containing
                      the necessary information. CMS need take the remaining actions only if
                      facilities do not pay by the due date. The second action, assessment of
                      interest, serves as an incentive for facilities to promptly remit payment.
                      The last two actions, offsets and referrals to the Department of the
                      Treasury, recognize that some facilities may not promptly pay their fines
                      and that the Government must collect payment through other means.
    OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                      6
F   I N D I N G          S 





                        Table 2: CMS Did Not Take All Required Actions
                                                                                                                                Past-Due CMPs With
                                                                                                Applicable 
                  Required Action Not Taken
                                       Required Action 
                                           CMPs*                               CMPs     Percent

                        Complete Notice                                                                    221                         88          40%
                        Interest Assessment                                                                228                         164         72%
                        Referral for Offset                                                                228                         162         71%
                        Transfer to Treasury*                                                                95                        95         100%

                             Total (All Applicable Actions)                                                228                         215**       94%
                       Source: OIG analysis of 228 CMPs initiated in 2002 and past due by more than 30 days

                       *Not required for cases with settlement agreements; transfer to Treasury only required for cases 

                         that were unpaid after 180 days.

                       **This figure is not intended to represent the sum of the individual actions listed above. 


                      CMS did not send complete notification of their fines to 40 percent of facilities
                      with past-due CMPs.
                      Case documentation showed that CMS did not provide any written notice to
                      4 percent (10 out of the 228 past-due CMPs) of the facilities with CMPs that
                      became past due by more than 30 days. In the remaining cases, we
                      examined the notices to determine whether they contained required
                      information, including the amount of the CMP; the amount due; the due
                      date; the rate of interest to be charged on unpaid balances; and, for per-day
                      penalties, the dates the CMP accrued. Thirteen percent of notices did not
                      include a due date for the CMP and one notice omitted the amount that was
                      due, both of which are critical pieces of information facilities need to remit
                      payment on time. The most commonly omitted information, the interest
                      rate to be charged on any unpaid balances, was missing from 23 percent of
                      notices.
                      CMS did not assess interest in 72 percent of past-due CMPs as required.
                      Regulations require the assessment of interest on unpaid balances after the
                      due date.19 CMS assessed interest on only 28 percent of past-due CMPs and
                      actually collected it for only 21 percent.
                      CMS did not refer 71 percent of past-due CMPs to fiscal intermediaries and State
                      Medicaid agencies to initiate offsets.
                      Regulations permit CMS to collect CMPs via a deduction from monies owed
                      to the facilities, called offsets, and CMS has instructed the regional offices
                      to do so if a check is not received by the due date.20,21 We found that CMS
                      only initiated offsets for 29 percent of past-due CMPs. Further, many of
                      these referrals occurred well after the CMPs were due—an average of 83



    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                                          7
F   I N D I N G          S


                      days after the due date for referrals to fiscal intermediaries and 88 days
                      after the due date for referrals to State Medicaid agencies.
                      CMS did not transfer any CMPs that were over 180 days past due to the
                      Department of the Treasury, as required.
                      CMS documented that, following issuance of GAO’s report in 2001, it
                      transferred 10 CMPs imposed between 1996 and 1998 to the Department of
                      the Treasury. We found no evidence that any further CMP debt has been
                      transferred, including the 95 eligible CMPs that were initiated in 2002.
                      CMS sometimes uses past-due letters or telephone calls to improve collection
                      results.
                      CMS mailed past-due letters to 27 percent of facilities with CMPs that were
                      not paid more than 30 days after their due dates and received payment
                      from 48 percent (30 out of 62) of these facilities within a month of the letter,
                      avoiding the need for further collection efforts. Similarly, CMS staff
                      reported making direct telephone calls to facility administrators in 18
                      percent of past-due cases and received payment within a month from 50
                      percent (21 out of 42) of these facilities.

                                                                      Interviews with CMS staff in
                Responsibilities for CMP collections are
                                                                      central and regional offices
                  neither clearly defined nor commonly                suggest that there is
                                           agreed upon                uncertainty about
                                                                      responsibilities for collection of
                      CMPs. CMS central office staff viewed CMP collections as primarily a
                      regional office responsibility, citing written guidance in a 1999 Program
                      Memorandum (since expired) describing which CMS staffs were responsible
                      for various aspects of CMP collections. Regional office staff perceptions
                      varied. Staff in one regional office expressed the view that all collection
                      efforts, from receiving payments to following up on late cases, are the
                      responsibility of the central office. Other regional staff felt they were
                      primarily responsible for collecting CMPs, but argued that regional offices
                      should not act as “collection agencies” and suggested that collection efforts
                      should be either fully centralized or should become a contracted function.

                      The failure to complete required collection activities described earlier is
                      partially attributable to the lack of clarity of responsibilities and
                      procedures. For example, interviews with CMS staff suggested that there
                      are problems that may contribute to interest not being assessed as it
                      should. Some regional office staff reported that the rules for calculating
                      and applying interest are not well defined, and others expressed confusion



    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                       8
F   I N D I N G          S


                      about who within CMS is responsible for assessing interest. Even when a
                      rate is known, staff indicated that calculating the interest can be difficult.

                      Another example of lack of clarity involves transferring cases to the
                      Department of the Treasury for collections. Regional offices were unaware
                      that it is required and some did not even know that this is an option.


                           Databases used for tracking CMP                  Based on a comparison of
                       collections contained inaccurate and                 data contained in CMS’s
                                                                            CMPTS to documents
                  incomplete information, causing collection
                                                                            obtained from CMS’s
                                  errors and frustrating staff
                                                                            regional offices, we
                      determined that 32 percent (109 out of 337) of CMPs that appeared to be
                      past due by more than 30 days were identified incorrectly as the result of
                      inaccurate data. Adjustments resulting from these errors produced the 228
                      past-due CMPs we focused on in our inspection. (See Table A2 in Appendix
                      A.) Specifically, 65 of the 109 incorrectly identified CMPs showed past-due
                      balances that had already been paid in full or were not due for other
                      reasons. Another 41 of the 109 CMPs were missing information to indicate
                      that the case was on hold for an appeal, bankruptcy, or criminal
                      investigation by the Department of Justice. Finally, three CMPs had been
                      rescinded, yet the database still listed the CMPs as owed and delinquent.
                      In addition to inaccuracies that made CMPs erroneously appear past due,
                      we found other data errors such as incorrect CMP due dates and amounts.22
                      CMS regional office staff reported that data inaccuracies create a
                      disincentive for them to pursue collection of past-due CMPs. Staff reported
                      that inaccurate data make it difficult to determine which CMPs need
                      collection efforts and that they do not want to request payment for a CMP
                      that is not due. One region reported having sent letters to facilities
                      requesting payment for past-due CMPs only to find that some payments
                      had been remitted on time but not recorded in CMPTS. Regional staff also
                      reported that, rather than being able to examine multiple past-due cases at
                      once, they must review CMP cases individually in the CMPTS, making
                      collection activities time consuming. If errors lead to facilities making
                      payments for the wrong amount, staff reported that extra steps must then
                      be taken to refund any overpayment or to collect the remainder of the CMP.




    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                       9
F   I N D I N G          S


                      Shortcomings in the database systems increase the potential for data errors and
                      missing information.
                      In part, CMP data errors and staff frustration are attributable to how the
                      information is accumulated and entered into the three distinct databases
                      that CMS uses for processing CMPs. (See Figure 1.) Because these three
                      systems do not interface, information for the same CMP must be entered
                      into them separately. Entering data multiple times increases the
                      opportunities for data-entry errors, missing data, and inconsistent updates
                      across systems.

                                F igu re 1 : C M S D a taba se In fo rm atio n E n try P roc ess



                                                                                       C M P T ransm ittal F orm




                                            C M S R egion al O ffice S taff E nte r                                 C M S O ffice of F inancial M anagem ent
                                           A m ount and D ate D ue Inform ation                                        S taff E nter P a ym ent Info rm ation




                                           LT C                                                       CM PTS                           F inan cial A ccounting and
                                                                                                                                            C ontrol S ystem


                      S ource : O IG ana lysis o f databases a nd intervie w s w ith C M S staff, 2004




                      To help identify and correct inaccurate information, CMS’s Office of
                      Financial Management generates and distributes a monthly report of all
                      CMPs listed in CMPTS as uncollected. In theory, regional staff could use
                      this report to validate information in paper files and the LTC database.
                      While some regional staff reported that they use the report each month,
                      others reported they were unaware of its existence and still others indicated
                      that it is not useful, difficult to read, and often not current.
                      State Medicaid agencies do not always notify CMS of collections through
                      offsets, resulting in incomplete collections data.
                      Another source of data inaccuracies involves offsets. CMS referred 66
                      CMPs to State Medicaid agencies for offset. For 29 of those, State Medicaid


    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                                            10
F   I N D I N G          S



                  agencies either failed to collect the Medicaid portions or failed to notify
                  CMS that they had collected them.

                  CMS staff report that they do not always know when State Medicaid
                  agencies actually offset the funds; therefore, this information is sometimes
                  not entered into CMPTS. Collections made by the State Medicaid agency
                  are retained by the State. If State Medicaid agencies do not send CMS a
                  notice of the collection, the Medicaid portion of the CMP appears to be
                  uncollected in the CMPTS. CMS staffs report that States are inconsistent
                  in sending such notices.




OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                   11
Δ R E C O M M                        E N D A T I O N S                                                        

 Δ R E C O M M                         E N D A T I O N S




                    Based on prior and current OIG studies, it is clear that nursing facilities
                    pay the majority of CMPs when they are due, meaning that CMS does not
                    need to take additional steps to collect most fines. However, our analysis
                    demonstrates that when extra collection efforts are called for, CMS is not
                    fully successful and often does not take required actions. Of the 228 CMPs
                    initiated in 2002 that became more than 30 days past due, 79 were not fully
                    collected by March 2004, the end of our study period. Further, when
                    collection occurred in cases that became more than 30 days past due, it was
                    often very late, with an average collection time of 115 days past the due
                    date.
                    Several factors within CMS’s control affect timeliness of CMP collections.
                    For example, CMS did not take all required collection actions for 94 percent
                    of the past-due CMPs. Further, lack of clear roles and responsibilities and
                    problems with automated systems create disincentives for CMS staff to
                    follow up on past-due cases.

                    Timely collection of all CMPs is important for ensuring that nursing
                    facilities return to and remain in compliance with Federal standards of
                    patient care. To ensure that all CMPs are fully collected as timely as
                    possible, we recommend the following to CMS:
                    Provide Oversight to Ensure That All Required Actions for Collecting CMPs Are
                    Taken.

                    Specifically, CMS should ensure that staff:
                    Provide a complete notice to all facilities upon which CMPs are imposed Not
                    sending notification, or not including information such as the due date or
                    the amount due, can make it difficult for facilities to make payments
                    accurately and timely. Development of a standardized notice for use by
                    CMS staff could help eliminate some errors.
                    Assess interest on all past-due CMPs Clarifying the circumstances under
                    which headquarters or regional office staffs are responsible for assessing
                    interest would be helpful, as would having the appropriate interest rates
                    easily accessible by regional office staff. An electronic tool that calculates
                    payments and interest on installment plans may be useful.
                    Routinely refer past-due CMPs to fiscal intermediaries and State Medicaid
                    agencies for collection using offsets from funds owed to the facilities Setting a
                    specific point in time after the due date for initiation of offsets could assist
                    in making collection of past-due CMPs by offset more routine.

  OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                     12
R   E C O        M M E N D A T                           I O N               S             





                      Transfer CMPs over 180 days past due to the Department of the Treasury as
                      required

                      Provide Staff With Written Guidelines to Clarify Responsibilities For and Priority
                      of CMP Collections.
                      Although CMS outlined CMP collections procedures in 1999, they have
                      expired. A new communication, with more clearly delineated
                      responsibilities and increased emphasis on the importance of collections,
                      would provide staff with needed clarity about expectations for various
                      actions. Guidelines could be most useful if they included timelines for
                      actions such as assessing and collecting interest, referring cases for offset,
                      and transferring debt to the Department of the Treasury. New guidelines
                      should also articulate the importance of CMP collections for ensuring that
                      nursing facilities meet standards of care for Medicare and Medicaid
                      beneficiaries.
                      Ensure the Accuracy of Information Contained in Databases Used for Tracking
                      CMP Collections and Make Them Easier to Use.
                      A review of CMP cases from 2002 revealed multiple instances in which
                      inaccurate data made CMPs appear to be past due—and thus in need of
                      collection actions—when in fact no collection was needed. These inaccuracies
                      included incomplete data, unrecorded payments, inconsistent information
                      between databases, and incorrect due dates and dollar amounts. Some likely
                      causes of these data errors are multiple data entry points and separate
                      databases that are unable to communicate or update information. Reports
                      that could be used to detect errors are often not used by CMS staff.

                      Data inaccuracies reportedly create a disincentive for staff to engage in
                      necessary and required collection actions because they do not want to attempt
                      collection of incorrect amounts or CMPs that are not due or have already been
                      paid. Several options for improvements include:
                      Reducing, where possible, the number of multiple data entry points for the same
                      information and increasing the interfaces between databases Dual data entry at
                      both the regional offices and central office increases the effort expended and
                      creates more opportunity for errors.
                      Reducing data entry errors Data entry errors could also be reduced by
                      building logic safeguards into various fields in the database. For example,
                      date fields could be programmed to reject an impossible date.




    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                       13
R   E C O         M M E N D A T                            I O N              S



                    Routine reconciliation between CMP collection data sources Routine use of
                    monthly reports regarding uncollected CMPs could help identify data
                    inaccuracies and place increased emphasis on collections.
                    Providing regional office staffs with an easier method for tracking payments
                    Providing regional offices with the ability to print reports directly from
                    CMPTS, rather than requiring them to look up each CMP individually,
                    could make it easier for staff to take required collection actions and
                    eliminate a source of frustration.
                    Developing reliable and consistent feedback methods with State Medicaid agencies
                    to better track offsets




                    OIG separately furnished CMS with information regarding the CMPs
                    reviewed so that CMS may take appropriate collection actions in these
                    cases.




OEI-06-03-00420       N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                     14
Δ         A G E N C Y                            C O M M E N T S                                                      



                  CMS concurred with our recommendations. The agency further commented
                  that it has recently or will soon implement all of the OIG recommendations
                  and had initiated an internal quality improvement project in March 2004.
                  The full text of CMS’s comments is presented in Appendix B.




OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                  15
Δ   E N D N O T E S                                 





                  1	    Sections 1819(f)(1) and 1919(f)(1) of the Social Security Act, 42 U.S.C.
                        §§ 1395i-3(f)(1), 1396r(f)(1).

                  2	    42 C.F.R. § 488.402(a) (2003).

                  3	    42 C.F.R. § 488.301 (2003).

                  4	    Department of Health & Human Services, Office of Inspector General,
                        Draft Report, “Nursing Facility Enforcement: The Use of Civil Money
                        Penalties,” OEI-06-02-00720, March 2004.

                  5	    CMPs are not collectable when an appeal hearing is pending, a
                        bankruptcy settlement is in process, the Department of Justice has
                        requested that collection is held while a criminal investigation is being
                        conducted, or the due date has been extended by an agreement with
                        CMS (e.g., the facility is paying in installments).

                  6	    Department of Health and Human Services, Office of Inspector General,
                        Draft Report, “Nursing Facility Enforcement: The Use of Civil Money
                        Penalties,” OEI-06-02-00720, March 2004.

                  7	    42 C.F.R. § 498.40(a)(2) (2003).

                  8	    42 C.F.R. § 488.436(a) (2003).

                  9	    Section 1819(h)(2)(B) of the Social Security Act.

                  10	   42 C.F.R. § 488.440(d) (2003).

                  11	   42 C.F.R. § 488.442(d) (2003).

                  12	   CMS Program Memorandum Regional Offices Standards and
                        Certification, Transmittal No. 99-1, April 1999.

                  13	   42 C.F.R. § 488.442(c) (2003).

                  14	   Debt Collection Improvement Act of 1996, Pub. L. No. 104-134, 110 Stat.
                        1321 (1996).




OEI-06-03-00420   N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                 16
                  15    Department of Health and Human Services, Office of Inspector General,
                        Draft Report, “Nursing Facility Enforcement: The Use of Civil Money
                        Penalties,” OEI-06-02-00720, March 2004.

                  16    U.S. Government Accountability Office, “Civil Fines and Penalties Debt:
                        Review of CMS’ Management and Collection Processes,” GAO-02-116,
                        Appendix II, page 3(2), December 2001.

                  17	   The median time past due was 73 days.

                  18	   These facilities were out of compliance with deficiencies of a scope and
                        severity of D (potential for more than minimal harm) or higher.

                  19	   42 C.F.R. § 488.442(d) (2003).

                  20	   42 C.F.R. § 488.442(c) (2003).

                  21	   CMS Program Memorandum Regional Offices Standards and
                        Certification, Transmittal No. 99-1, April 1999.

                  22	   Data errors found were corrected prior to data analysis and do not affect
                        any of the above findings.




OEI-06-03-00420   N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                 17
Δ      A P P E N D I X                                A            


                      DETAILED METHODOLOGY
                      Data Sources
                      Documentary Evidence

                      We requested case information and supporting documentation from the
                      CMS regional offices for each of the cases we initially identified as more
                      than 30 days past due. Information requested included whether
                      additional payments had been made, whether CMS staff had taken the
                      required actions, whether additional actions beyond those required had
                      been taken, and difficulties experienced in trying to collect the CMP. We
                      requested all collection information from the time the CMP became due
                      through March 2004 (the end of our documentation data collection
                      period). We also requested supporting documentation, including copies of
                      all letters to facilities notifying them that the CMP was due. We received
                      responses for 100 percent of the requested cases. Finally, we used a
                      worksheet to capture data extracted from the regional office responses as
                      supporting documentation.
                      Interviews

                      We conducted interviews with staff in CMS central and regional offices in
                      September 2003. Interviews with staff at CMS regional offices provided
                      information about the procedures used in each region and any difficulties
                      encountered when collecting CMPs. CMS central office staff in the Office
                      of Financial Management participated in interviews designed to capture
                      the role of CMS’s central office in the collection of CMPs and difficulties
                      with tracking CMP payments. OFM staff also demonstrated the
                      procedures for processing CMP payments, including use of the
                      management information systems.
                      Databases

                      The CMS databases used for this study were LTC, CMPTS, and OSCAR.

                      LTC The LTC database is a compilation of each CMS region’s nursing
                      facility enforcement case files. Caseworkers update this information as
                      enforcement actions occur. The database contains information about
                      remedy imposition, including CMPs, as well as the dates of the surveys
                      conducted during the enforcement cycle.
                      CMPTS The CMPTS is the centralized CMS database used for tracking
                      the collection and allocation of CMP payments. There are two parts to
                      this database: payments due and payments received. CMS regional office
                      staff enter information into the CMP payments due part; CMS central
                      office staff enters information about payments collected. This database
    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                       18
A   P   P E N D       I X                A


                      was the source of information about the CMP amount due, the due date,
                      the amount paid, and the date of payment.

                      OSCAR We used CMS’s nationwide database of nursing facility
                      surveys, OSCAR, to explore the performance of the facilities with
                      unpaid past-due CMPs. OSCAR maintains information on the four
                      most recent standard surveys of certified nursing facilities nationwide,
                      as well as complaint-generated surveys.
                      Initial Case Identification
                      Identification of Enforcement Cases With CMPs Imposed Using LTC, we
                      identified 4,173 enforcement cases initiated in CY 2002. From that group,
                      we identified 2,149 cases in which CMPs were imposed. These CMPs
                      resulted from both standard and complaint surveys. We used the year
                      2002 because it was the most recent year in which we could expect the
                      majority of CMPs to have become due. CMP due dates are often delayed
                      by appeals. (See Table A1.)

                          Table A1: Initial CMP Collections Cases Selected
                                                                                       Use of CMPs
                          CMS Enforcement Cases                                                                                          4,173 cases
                          CMPs Imposed                                                                                                   2,149 cases
                                                                              Collectability of CMPs
                          Uncollectable                                                                                                    167 CMPs
                          Collectable                                                                                                    1,982 CMPs
                                                              Payment Status for Collectable CMPs
                          Paid in Full on Time                                                                                            928 CMPs
                          Paid 1 to 30 Days Late                                                                                          717 CMPs
                          CMPs More Than 30 Days Late                                                                                     337 CMPs
                          Source: OIG analysis of 4,173 nursing facility enforcement cases initiated in 2002



                      We matched the imposed CMPs we found in LTC to CMPs listed in
                      CMPTS.1 We used the due date from CMPTS to identify CMPs that
                      became past due, and the amounts due and paid to determine whether the
                      CMPs had been paid, partially paid, or remained unpaid.

                      1   Some cleaning of the LTC and CMPTS data was necessary. We were able to match all 2,149
                          CMPs between the CMPTS and LTC databases using the CMP collection number (present
                          in both databases). In LTC, cases in which a CMP was rescinded by an Informal Dispute
                          Resolution or regional office decision were recoded, missing CMP collection numbers were
                          added to match those in the CMPTS, and amounts and dates entered in error were
                          corrected using data obtained from alternative sources. In CMPTS, cases in which the CMP
                          had been rescinded were eliminated, duplicate files were deleted, and amounts due and paid
                          and missing or incorrect dates were reconciled with LTC.

    OEI-06-03-00420       N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                                 19
A   P   P E N D           I X             A


                      Identification of Collectable CMPs We used information from LTC to
                      determine whether the CMPs imposed were collectable. One hundred
                      sixty-seven CMPs were uncollectable because they were on hold while the
                      facility appealed the CMP (115), the facility was undergoing bankruptcy
                      proceedings (19), the CMP was being paid in installments and the final
                      installment was not yet due (30), or the CMP had not yet reached the due
                      date (3). This process yielded 1,982 collectable CMPs.
                      Determining Timeliness of Payment The LTC and CMPTS data showed that
                      53 percent (1,054) of the 1,982 collectable CMPs imposed in 2002 and due
                      as of February 1, 2004, were paid at least 1 day late, partially paid, or not
                      paid at all.2 The 2004 OIG study found that, on average, CMPs were paid
                      32 days after the due date.3 Thus, for this inspection, we chose to more
                      thoroughly examine all 337 CMPs that were more than 30 days past due
                      to capture the more extreme cases that were overdue by more days than
                      average.
                      Data Collection
                      Using a structured data collection instrument, we sent data requests to
                      the corresponding regional offices for each of the 337 CMPs identified as
                      past due by more than 30 days. Each request included information on the
                      CMP, such as the facility identifiers, the CMP collection number, the
                      survey completion date, the CMP due date, the amount due, and any
                      amounts paid. We asked whether any additional payments were made on
                      the CMP. We also asked regional office staff to place a check next to each
                      of the actions taken for each CMP case and to describe any additional
                      actions that we had not listed. The actions listed were sending a letter of
                      notification that the CMP was due, assessing interest, referring the case
                      for offset by the fiscal intermediary and/or State Medicaid agency,
                      transferring the case to the Department of the Treasury, sending
                      additional letters or e-mails to the provider, making telephone calls to the
                      provider, and other actions. We also asked staff to describe any
                      difficulties their offices experienced in trying to collect the CMP and
                      requested that they attach supporting documentation for each action
                      taken. We received information for 100 percent of the CMP case requests.




                      2   Before we requested data from the regional offices, we captured all CMPs past due as of
                          February 1, 2004, because that was the date the data were downloaded and sent to us from
                          CMS. We were later able to document payments through March 2004 from data received
                          from regional offices.
                      3   Department of Health and Human Services, Office of Inspector General, Draft Report,
                           “Nursing Facility Enforcement: The Use of Civil Money Penalties,” OEI-06-02-00720.

    OEI-06-03-00420        N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                          20
A   P   P E N D       I X                A


                      We also requested information and documentation from the CMS Office of
                      Financial Management regarding all nursing facility CMPs transferred to
                      the Department of the Treasury.4
                      Data Analysis
                      We performed data processing and analyses using SAS, Microsoft Access,
                      and Microsoft Excel.
                      Qualitative Data We transcribed notes from all responses to CMS regional
                      office and central office interviews. Analysts then reviewed the material
                      from all of the interviews to identify similarities and differences among
                      the responses of different offices and to gauge the impact of the
                      information on CMP collections. In conjunction with the quantitative case
                      data, this qualitative analysis of staff interviews is used throughout the
                      report to further explain our findings.
                      Documentary Evidence We entered qualitative and quantitative
                      information from the documents received from the regional offices into an
                      Access database. We used information that was provided by regional
                      office staff about CMP payments or dates to update information. We also
                      added data extracted from the documentation about the presence and
                      completeness of letters notifying the facility that the CMP was due,
                      interest assessed, offsets, other collection efforts, and reported difficulties
                      encountered by CMS staff.
                      Obtaining the Final Cases Analysis of data from the documentary evidence
                      indicated that 109 of the 337 CMPs were inappropriately coded as past
                      due because of data errors or incomplete information. Three CMPs had
                      been rescinded, reducing the number of CMPs imposed from 2,149 to
                      2,146. Forty-one CMPs were on hold for appeals, bankruptcies,
                      installments, or criminal investigation by the Department of Justice,
                      increasing the number of uncollectable CMPs from 167 to 208. Sixty-five
                      CMPs were misidentified as past due because of inaccurate information in
                      the database, increasing the number paid in full on time from 928 to 993.
                      Table A2 presents the final, corrected numbers of CMPs imposed and their
                      collection status.




                      4   Our interviews with CMS regional and central office staff indicated that, to date, any
                          transfer of cases to the Department of the Treasury was done by the CMS Office of
                          Financial Management.

    OEI-06-03-00420       N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                         21
A   P   P E N D       I X             A           




                       Table A2: Final CMP Collections Cases
                                                                                    Use of CMPs
                       CMS Enforcement Cases                                                                                          4,173 cases
                       CMPs Imposed                                                                                                   2,146 cases
                                                                           Collectability of CMPs
                       Uncollectable                                                                                                    208 CMPs
                       Collectable                                                                                                    1,938 CMPs
                                                           Payment Status for Collectable CMPs
                       Paid in Full on Time                                                                                            928 CMPs
                       Paid 1 to 30 Days Late                                                                                          717 CMPs
                       CMPs More Than 30 Days Late                                                                                     228 CMPs
                       Source: OIG analysis of 4,173 nursing facility enforcement cases initiated in 2002



                      Eventual Collection of CMPs We used information in CMPTS,
                      supplemented by updated information from the documentary evidence, to
                      determine the proportion of the 228 past-due CMPs that were fully,
                      partially, or not at all collected by March 31, 2004, the end of our study
                      period. The due date was subtracted from the collection date to determine
                      the number of days past due. February 1, 2004 (the date the data were
                      extracted), was used as the default collection date for cases that were not
                      yet collected so we could compute the number of days they were past due
                      as of the time of this study. Descriptive statistics were used to find the
                      minimum and maximum days late per group, average days late,
                      percentage over 180 days past due, and the numbers with outstanding
                      balances for over 1 year.
                      Facility Performance for Uncollected CMPs Provider numbers were used to
                      match the LTC files for the uncollected CMPs with OSCAR data to
                      explore past and subsequent performance of the facilities. Each facility’s
                      performance on standard and complaint surveys was reviewed and
                      summarized. Information in the Notes field in LTC was used to provide
                      additional details of visit findings.
                      Actions Taken by CMS Data extracted from the documentary evidence
                      provided by CMS regional offices, data in CMPTS, and data from the
                      Office of Financial Management were used to determine actions taken.
                      The past-due letters received from the regional offices were each reviewed
                      to describe completeness of their content. We did not receive letters for 29
                      CMPs: 7 CMPs did not require letters to be sent (i.e., settlement
                      agreements); the regional office reported that a letter was sent but failed
                      to attach it for 12 CMPs; and no letters were sent at all for 10 CMPs.

    OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                              22
A   P   P E N D       I X              A


                      Interest assessment and payment information was obtained from CMPTS.
                      Information regarding referrals for offsets and additional actions was
                      obtained from the documentary evidence provided by the regional offices.
                      The CMS Office of Financial Management provided information on CMPs
                      transferred to the Department of the Treasury for collection.
                      Contributors to Noncollection Qualitative interview data were used to
                      explore database shortcomings, clarity of roles and responsibilities, and
                      staff incentive to follow up on past-due cases. Whenever possible, the
                      qualitative data findings were supplemented by quantitative data from
                      the databases and coded regional office documentation.
                      Data Limitations
                      Despite extensive data cleaning efforts, it is possible that identification of
                      some past-due CMPs may have been impeded by dates entered
                      erroneously in the CMPTS data that were not discovered during data
                      cleaning.




    OEI-06-03-00420     N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                       23
Δ      A P P E N D I X                                  B            


 Agency Comments to Draft Report




OEI-06-03-00420   N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                 24
A   P   P E N D      I X ~             B            





OEI-06-03-00420   N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                 25

A   P   P E N D           I X ~      B            





        OEI-06-03-00420      N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                            26
Δ   A C K N O W L E D G M E N T S                                                                             



                  This report was prepared under the direction of Judith V. Tyler, Regional
                  Inspector General for Evaluation and Inspections in the Dallas Regional
                  Office, and Kevin Golladay, Assistant Regional Inspector General. Other
                  principal Office of Evaluation and Inspections staff who contributed
                  include:

                  Amy Ashcraft, Team Leader
                  Susan M. Wolfe, Ph.D., Project Leader

                  A. Blaine Collins, Program Analyst

                  Ruth Ann Dorrill, Program Analyst

                  Clark Thomas, Ph.D., Program Analyst

                  Sandy Khoury, Program Specialist



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician



                  Field Assistance

                  The following individuals assisted with regional office interviews:

                  Tara Bernabe, Program Analyst

                  Sylvia Chin, Program Analyst

                  Tricia Fields, Program Analyst
                  Graham Rawsthorn, Assistant Regional Inspector General, Atlanta

                  David Rudich, Program Analyst

                  Marco Villagrana, Program Analyst




OEI-06-03-00420    N U R S I N G H O M E E N F O R C E M E N T: C O L L E C T I O N   OF   C I V I L M O N E Y P E N A LT I E S
                                                                                                                                  27
